<html>
<title> - ENSURING DIVERSITY AT THE SENIOR LEVELS OF THE FEDERAL GOVERNMENT AND THE U.S. POSTAL SERVICE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
 ENSURING DIVERSITY AT THE SENIOR LEVELS OF THE FEDERAL GOVERNMENT AND 
                        THE U.S. POSTAL SERVICE

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON FEDERAL WORKFORCE,
                    POSTAL SERVICE, AND THE DISTRICT
                              OF COLUMBIA

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 10, 2007

                               __________

                           Serial No. 110-46

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                    U.S. GOVERNMENT PRINTING OFFICE
41-852                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

             COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                JIM JORDAN, Ohio
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director

Subcommittee on Federal Workforce, Postal Service, and the District of 
                                Columbia

                        DANNY K. DAVIS, Illinois
ELEANOR HOLMES NORTON, District of   KENNY MARCHANT, Texas
    Columbia                         JOHN M. McHUGH, New York
JOHN P. SARBANES, Maryland           JOHN L. MICA, Florida
ELIJAH E. CUMMINGS, Maryland         DARRELL E. ISSA, California
DENNIS J. KUCINICH, Ohio, Chairman   ------ ------
WM. LACY CLAY, Missouri
STEPHEN F. LYNCH, Massachusetts
                      Tania Shand, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 10, 2007.....................................     1
Statement of:
    Brown, William, president, African American Federal 
      Executives Association; Rhonda Trent, president, Federally 
      Employed Women; Gilbert Sandate, Senior Policy Associate, 
      National Association of Hispanic Federal Executives; 
      Darlene Young, president, Blacks in Government; and William 
      Bransford, general counsel, Senior Executives Association..   113
        Bransford, William.......................................   142
        Brown, William...........................................   113
        Sandate, Gilbert.........................................   129
        Trent, Rhonda............................................   120
        Young, Darlene...........................................   137
    Lovelace, Gail, Chief Human Capital Officer, General Services 
      Administration; Vickers Meadows, Chief Administration 
      Officer, U.S. Patent and Trademark Office; Reginald Wells, 
      Deputy Commissioner, Social Security Administration; and 
      Susan LaChance, vice president of employee development and 
      diversity, U.S. Postal Service.............................    71
        LaChance, Susan..........................................    97
        Lovelace, Gail...........................................    71
        Meadows, Vickers.........................................    81
        Wells, Reginald..........................................    88
    Stalcup, George H., Director, Strategic Issues, U.S. 
      Government Accountability Office; Nancy Kichak, Associate 
      Director, Strategic Human Resources Policy Division, Office 
      of Personnel Management; and Carlton Hadden, Director, 
      Office of Federal Operations, U.S. Equal Employment 
      Opportunity Commission.....................................     5
        Hadden, Carlton..........................................    50
        Kichak, Nancy............................................    45
        Stalcup, George H........................................     5
Letters, statements, etc., submitted for the record by:
    Bransford, William, general counsel, Senior Executives 
      Association, prepared statement of.........................   144
    Brown, William, president, African American Federal 
      Executives Association, prepared statement of..............   116
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............   151
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois, prepared statement of...................     3
    Hadden, Carlton, Director, Office of Federal Operations, U.S. 
      Equal Employment Opportunity Commission:
        Followup question and response...........................    67
        Prepared statement of....................................    52
    Kichak, Nancy, Associate Director, Strategic Human Resources 
      Policy Division, Office of Personnel Management, prepared 
      statement of...............................................    47
    LaChance, Susan, vice president of employee development and 
      diversity, U.S. Postal Service, prepared statement of......    99
    Lovelace, Gail, Chief Human Capital Officer, General Services 
      Administration, prepared statement of......................    73
    Meadows, Vickers, Chief Administration Officer, U.S. Patent 
      and Trademark Office, prepared statement of................    83
    Sandate, Gilbert, Senior Policy Associate, National 
      Association of Hispanic Federal Executives, prepared 
      statement of...............................................   131
    Stalcup, George H., Director, Strategic Issues, U.S. 
      Government Accountability Office, prepared statement of....     7
    Trent, Rhonda, president, Federally Employed Women, prepared 
      statement of...............................................   122
    Wells, Reginald, Deputy Commissioner, Social Security 
      Administration, prepared statement of......................    90
    Young, Darlene, president, Blacks in Government, prepared 
      statement of...............................................   139


 ENSURING DIVERSITY AT THE SENIOR LEVELS OF THE FEDERAL GOVERNMENT AND 
                        THE U.S. POSTAL SERVICE

                              ----------                              


                         THURSDAY, MAY 10, 2007

                  House of Representatives,
Subcommittee on Federal Workforce, Postal Service, 
                      and the District of Columbia,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:58 p.m. in 
room 2247, Rayburn House Office Building, Hon. Danny K. Davis 
(chairman of the subcommittee) presiding.
    Present: Representatives Davis of Illinois, Cummings, Clay, 
and Sarbanes.
    Staff present: Tania Shand, staff director; Caleb 
Gilchrist, professional staff member; Lori Hayman, counsel; 
Cecelia Morton, clerk; Mason Alinger, minority senior 
professional staff member; and Alex Cooper, minority 
professional staff member.
    Mr. Davis of Illinois. The subcommittee will come to order.
    If this was on a Sunday I would say that this was the day 
that the Lord has made, because basically there are so many 
things going on at the moment and so many different things 
taking place. We have two subcommittee hearings taking place in 
the Committee on Oversight and Government Reform, Domestic 
Policy, as well as this one, and about the same Members are on 
both subcommittees, so obviously some of our Members are going 
to be there, some of our Members are going to be here, plus we 
have activity taking place on the floor. Some of our people are 
also going to be there. So you might see people coming in and 
out. It is not an indication of their lack of interest in the 
subject matter, or in your testimony; it is just that this is 
one of those working Congresses that is doing a great deal of 
work all at the same time.
    Let me thank our witnesses for being here. We appreciate 
the fact that you have come. We will just go right into the 
testimony in a minute once I swear in the witnesses. First, I 
would like to introduce them, though.
    Panel one, Mr. George Stalcup is the Director of Strategic 
Issues at the Government Accountability Office and he oversees 
a range of reviews of management issues across Government, 
including a variety of human capital areas. Mr. Stalcup also 
oversees GAO's high risk program and issuance of GAO's biennial 
update to its high risk list. He has over 37 years of Federal 
service, 33 of which have been at the GAO.
    Ms. Nancy Kichak was named Associate Director for the Human 
Resources Policy Division for the Office of Personnel 
Management in September 2005, and in this position she leads 
the design, development, and implementation of innovative, 
flexible, merit-based human resource policies.
    Mr. Carlton Hadden is a member of the Senior Executive 
Service as the Director of the Office of Federal Operations, 
U.S. Equal Employment Opportunity Commission. The Office is 
responsible for the Federal Government's equal employment 
opportunity EEO appellate function, and also provides oversight 
for the Government-wide EEO complaint adjudication and 
affirmative employment functions. In 1999, he was appointed 
Director of the Office of Federal Operations. Since his 
appointment, he has initiated sweeping changes, which have been 
instrumental in improving the operation of EEO programs in the 
Federal Government.
    That will be our first panel of witnesses. I was really 
hoping that my ranking member would have come in, and he hasn't 
managed to do so yet.
    I am going to read an opening statement, after which I am 
going to swear in the witnesses and we will proceed.
    Ranking Member Marchant, members of the subcommittee, and 
hearing witnesses, welcome to the subcommittee's hearing on 
ensuring diversity in the Senior Executive Services [SES], and 
the Postal Service. Today's hearing is being held as a followup 
to a hearing that I requested in 2003 to look at diversity 
within the SES. The hearing was prompted by a GAO study 
requested by me and other members of the former Committee on 
Government Reform. The study found a lack of diversity in the 
SES and maintained that, unless some affirmative action 
measures were taken, once members of the predominately white 
male SES retired, they would be replaced, for the most part, by 
white women.
    Today's hearing will look at current diversity trends in 
the SES and the Postal Career Executive Services. This hearing 
will help the subcommittee move forward on the very important 
issue of diversifying, the highest and most influential ranks 
of the Federal work force, the SES, and the Postal Service. 
This issue is important because the Federal work force should 
be as diverse as the people it serves. It is simply good 
business and, of course, it is good government.
    [The prepared statement of Hon. Danny K. Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T1852.001
    
    [GRAPHIC] [TIFF OMITTED] T1852.002
    
    Mr. Davis of Illinois. I am now going to move to swear in 
the witnesses. If you would, stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Davis of Illinois. The record will show that each 
witness answered in the affirmative. Thank you very much.
    Of course, your entire statement will appear in the record. 
The green light indicates that you have 5 minutes to summarize 
your statement. The yellow light means that your time is 
running down and you have only 1 minute remaining to complete 
your statement. The red light means that your time is expired.
    We will begin with Mr. Stalcup. Thank you very much, and 
welcome.

 STATEMENTS OF GEORGE H. STALCUP, DIRECTOR, STRATEGIC ISSUES, 
U.S. GOVERNMENT ACCOUNTABILITY OFFICE; NANCY KICHAK, ASSOCIATE 
DIRECTOR, STRATEGIC HUMAN RESOURCES POLICY DIVISION, OFFICE OF 
 PERSONNEL MANAGEMENT; AND CARLTON HADDEN, DIRECTOR, OFFICE OF 
     FEDERAL OPERATIONS, U.S. EQUAL EMPLOYMENT OPPORTUNITY 
                           COMMISSION

                 STATEMENT OF GEORGE H. STALCUP

    Mr. Stalcup. Thank you, Chairman Davis. Thank you for the 
opportunity to participate in this hearing on diversity at the 
senior levels of the Federal Government and the U.S. Postal 
Service.
    In 2003, we issued a report and looked at diversity in the 
SES as of October 2000. We also estimated by race, ethnicity, 
and gender the number on board who would leave Government 
service by the end of fiscal year 2007. Finally, we projected 
what the profile of the SES would be at the end of 2007, if the 
employment trends did not change. We made similar estimates at 
the GS-15 and GS-14 levels, which are viewed by most as the 
primary developmental pools for the SES.
    In 2000, we reported on diversity in the Postal Service, 
the Postal Career Executive Service, as well as the other 
levels within the Postal Service, as of September 1999.
    Now, while we have not done any recent work to update those 
previous reports, you asked us to provide data on diversity for 
this hearing on both the SES and the PCES, as well as, those 
groups that serve as the primary developmental pools for each 
and from which the vast majority of potential successors to 
those positions would come. That data is contained in the 
tables within my written statement.
    For the career SES and the related GS-15s and 14s, 
developmental pools, the data are showing for October 2000, 
which was drawn from our previous report, and from September 
2006, which we extracted from OPM's central personnel data 
file. There are Government-wide statistics, and there are 
statistics for each of the 24 CFO Act agencies.
    For the PCES and the related development pool, data are 
showing for September 1999, drawn from our previous report, and 
again from September 2006, and it was provided to us by the 
Postal Service. There are Service-wide statistics for officers, 
executives, and the developmental pool of Executive 
Administration Service levels 22 and above.
    The data show that as of September 2006, the overall 
representation of both women and minorities increased both in 
the SES and the PCES since our reports. In the SES the 
percentage of women increased from 23.6 to 28.4, and the 
percentage of minorities from 13.8 to 15.9. In the PCES the 
percentage of women moved from 20.1 to 28.6, and the percentage 
of minorities from 25.3 to 29.1.
    Increases also occurred in both the minorities and women 
within the developmental pools for both the SES and the PCES. 
It is important to point out, however, that the changes over 
this time and the percentages as of last September vary by 
group. While notable increases have come about in certain 
agencies or groups, in some areas percentages have not 
increased or have gone down.
    Again, we have not done work to identify or analyze the 
factors that account for these changes, but we look forward to 
working with the subcommittee on these important issues as we 
move forward.
    As we have just testified, the Federal Government is facing 
new and more complex challenges in the 21st century because of 
long-term fiscal constraints, changing demographics, and other 
factors. The SES and the PCES generally represent the most 
senior and experienced segments of those work forces that are 
critical to providing the strategic leadership needed to 
effectively meet these challenges. Having a diverse core of 
senior executives can be an organizational strength that 
contributes to the achievement of results by bringing a wider 
variety of perspectives and approaches to bear on policy 
development and implementation, strategic planning, problem 
solving, and decisionmaking.
    But retirement eligibility is typically high in the 
executive ranks. OPM has estimated that 90 percent of the 
Federal executives will be retirement eligible within 10 years, 
and the Postal Service expects nearly half of its executives 
to, in fact, retire within the next 5 years.
    Major departures could result in loss of leadership, 
institutional knowledge, and expertise within these leadership 
ranks. This underscores the need for effective succession 
planning. Succession planning is also tied to the opportunity 
to effect diversity through new appointments. Having a good 
insight into the Government's senior leadership and 
developmental pools, including the factors that are affecting 
representation today and factors such as retirements that will 
have an effect in the near future, are important to ensuring 
that we maintain the needed high quality and inclusive work 
force.
    This concludes my prepared remarks. We look forward to 
working with the subcommittee on these important issues, and I 
would be pleased to answer any questions you may have.
    [The prepared statement of Mr. Stalcup follows:]

    [GRAPHIC] [TIFF OMITTED] T1852.003
    
    [GRAPHIC] [TIFF OMITTED] T1852.004
    
    [GRAPHIC] [TIFF OMITTED] T1852.005
    
    [GRAPHIC] [TIFF OMITTED] T1852.006
    
    [GRAPHIC] [TIFF OMITTED] T1852.007
    
    [GRAPHIC] [TIFF OMITTED] T1852.008
    
    [GRAPHIC] [TIFF OMITTED] T1852.009
    
    [GRAPHIC] [TIFF OMITTED] T1852.010
    
    [GRAPHIC] [TIFF OMITTED] T1852.011
    
    [GRAPHIC] [TIFF OMITTED] T1852.012
    
    [GRAPHIC] [TIFF OMITTED] T1852.013
    
    [GRAPHIC] [TIFF OMITTED] T1852.014
    
    [GRAPHIC] [TIFF OMITTED] T1852.015
    
    [GRAPHIC] [TIFF OMITTED] T1852.016
    
    [GRAPHIC] [TIFF OMITTED] T1852.017
    
    [GRAPHIC] [TIFF OMITTED] T1852.018
    
    [GRAPHIC] [TIFF OMITTED] T1852.019
    
    [GRAPHIC] [TIFF OMITTED] T1852.020
    
    [GRAPHIC] [TIFF OMITTED] T1852.021
    
    [GRAPHIC] [TIFF OMITTED] T1852.022
    
    [GRAPHIC] [TIFF OMITTED] T1852.023
    
    [GRAPHIC] [TIFF OMITTED] T1852.024
    
    [GRAPHIC] [TIFF OMITTED] T1852.025
    
    [GRAPHIC] [TIFF OMITTED] T1852.026
    
    [GRAPHIC] [TIFF OMITTED] T1852.027
    
    [GRAPHIC] [TIFF OMITTED] T1852.028
    
    [GRAPHIC] [TIFF OMITTED] T1852.029
    
    [GRAPHIC] [TIFF OMITTED] T1852.030
    
    [GRAPHIC] [TIFF OMITTED] T1852.031
    
    [GRAPHIC] [TIFF OMITTED] T1852.032
    
    [GRAPHIC] [TIFF OMITTED] T1852.033
    
    [GRAPHIC] [TIFF OMITTED] T1852.034
    
    [GRAPHIC] [TIFF OMITTED] T1852.035
    
    [GRAPHIC] [TIFF OMITTED] T1852.036
    
    [GRAPHIC] [TIFF OMITTED] T1852.037
    
    [GRAPHIC] [TIFF OMITTED] T1852.038
    
    [GRAPHIC] [TIFF OMITTED] T1852.039
    
    [GRAPHIC] [TIFF OMITTED] T1852.040
    
    Mr. Davis of Illinois. Thank you very much. We will proceed 
right to Ms. Kichak.

                   STATEMENT OF NANCY KICHAK

    Ms. Kichak. Thank you. Thank you for inviting me here today 
to discuss diversity in the leadership ranks of the Federal 
Government, including the Senior Executive Service.
    The mission of the Office of Personnel Management is to 
ensure that the Federal Government has an effective civilian 
work force. President Bush and all of us at OPM wholeheartedly 
share your goal of building a Federal work force that draws on 
the strengths of America's diversity. Under the leadership of 
Director Linda Springer, OPM has expanded its efforts to reach 
the broadest possible pool of applicants for Federal jobs. We 
are committed to the merit system principles and ensuring that 
all Americans receive equal access to Federal employment 
opportunity, not only in the Senior Executive Service but at 
all levels of the Federal work force.
    OPM has been vigorous in its efforts to promote Federal 
employment widely, including in areas with diverse populations 
of potential applicants. Our outreach has included Federal 
career days and job fairs at universities and community 
colleges which were targeted for their potential to help us 
build a highly qualified applicant pool that draws on America's 
diversity.
    OPM launched a television ad campaign to spark interest in 
Federal employment. We aired these ads in targeted markets 
where we believe there is likely to be an ample supply of 
individuals who have the qualification, skills, and experience 
the Federal Government needs in its work force. The ads, 
entitled, What Did You Do at Your Job Today, have had a strong 
impact in raising awareness of and generating interest in the 
array of important and rewarding careers in the Federal 
Government. In addition to helping recruit new talent, the ads 
have showcased the impressive variety of public services 
provided by Federal employees every day.
    These outreach initiatives are designed to address the 
increasing numbers of Federal employees becoming eligible for 
retirement in the next few years. Succession planning is a 
crucial element in the development of a strong cadre of senior 
executives and candidate development programs are a recommended 
part of agency leadership succession plans.
    These programs must address the executive core 
qualifications, which include a desirable competency for 
fostering an inclusive workplace where diversity and individual 
differences are valued.
    OPM initiated a Federal candidate development program in 
2005 to provide opportunities to a broad audience for 
development and possible placement in the SES. We plan to 
administer the program again and will introduce efficiencies 
while still reaching out to the broadest audience.
    There is also a diversity component in our broader 
assessment of agencies' human capital management practices. 
Agencies receive either red, yellow, or green scores based on 
the standards for success described in OPM's human capital 
assessment and accountability framework. Diversity is an 
important element in this analysis. Overall, agencies have 
scored well on these items by developing strategies for 
sustaining diversity and implementing outreach and other 
activities designed to broaden their applicant pools.
    Under section 7201 of Title V of the U.S. Code, OPM is 
required to report to Congress on an annual basis with respect 
to minority representation in the Federal Government in 
relation to the overall civilian labor force. Our most recent 
report, which was submitted to Congress and to your 
subcommittee in January of this year, was submitted in January 
of this year.
    The report shows that the Federal Government continues to 
be a leader in employing minorities. Specifically, the latest 
data shows overall increases in minority representation between 
2005 and 2006, with minority groups better represented in the 
Federal work force than the civilian labor force.
    In conclusion, I want to assure you that OPM will continue 
its efforts to ensure our Government has an effective civilian 
work force that is highly qualified, citizen centered, and 
results driven. We must continue to focus on the need to 
develop and recruit a senior executive corps and the employees 
they lead from all sources of potential talent and to continue 
to draw on the strength of our Nation's broad diversity.
    I will be happy to answer any questions. Thank you.
    [The prepared statement of Ms. Kichak follows:]

    [GRAPHIC] [TIFF OMITTED] T1852.041
    
    [GRAPHIC] [TIFF OMITTED] T1852.042
    
    [GRAPHIC] [TIFF OMITTED] T1852.043
    
    Mr. Davis of Illinois. Thank you very much. We will go 
right to Mr. Hadden.

                  STATEMENT OF CARLTON HADDEN

    Mr. Hadden. Good afternoon, Mr. Chairman and members of the 
subcommittee. I appreciate this opportunity to appear before 
you on behalf of Naomi C. Earp, Chair of the U.S. Equal 
Employment Opportunity Commission. I am Carlton Hadden, 
Director of EEOC's Office of Federal Operations.
    When I last testified before this committee in 2003, I 
announced the roll-out of EEOC's new guidance for Federal 
agencies, which we call EEO-MD-715. This directive strongly 
emphasizes that equality of opportunity for all in the Federal 
workplace is key to attracting, developing, and retaining top 
quality employees. The directive requires agencies to 
systematically and regularly examine their employment policies 
and practices, to identify and remove barriers to free and open 
workplace competition. Plans for addressing barriers must be 
developed by agencies, and progress toward removing those 
barriers is monitored by EEOC.
    MD-715 is an important tool to assist agencies in changing 
past trends in order to promote greater diversity in the SES. 
Federal agencies must ensure that its employees, including 
those at the senior level, are drawn from all segments of 
society after fair and open competition. Selection, 
advancement, and all other employment decisions must be based 
solely on merit to ensure that all receive equal opportunity 
and to maximize the probability of selecting those with the 
best skills to do the job.
    In its 2003 study, GAO found that the vast majority of 
replacements for departing SES members come from the ranks of 
Federal employees of the GS-15 and 14 levels; therefore, EEOC 
believes that it will be critical for agencies to pay special 
attention to potential barriers to entry into those successor 
pools of GS-15s and 14s, with the focus on those positions that 
typically lead to senior-level management.
    In addition, potential barriers should be examined in 
training and other development opportunities that increase 
qualifications for future SES positions. Also, as future SES 
positions may be filled by candidates moving from the private 
industry rather than the Federal ranks, potential barriers in 
areas like executive recruitment efforts should also be 
examined.
    Each year EEOC thoroughly reviews agencies' self-analysis 
of their work forces and offers critical comments and technical 
assistance to agencies to help them to identify barriers, 
including those in the SES.
    EEOC staff has noticed that this tenor of assistance 
requested and questions asked by agencies has changed since the 
introduction of 715. As agencies have become more comfortable 
with the concept and practice of work force self-analysis, 
inquiries have moved from simple counting and numbers questions 
to more sophisticated questions on statistical analysis and 
barrier removal. As the questions have become more 
sophisticated, the answers to removing barriers have become 
more creative.
    We will not rest until agencies fully identify all those 
barriers in their workplaces and eliminate them to create an 
inclusive work environment in which the talents and energies of 
all individuals are valued, respected, and fully utilized.
    One of the EEOC's latest initiatives is the EEOC fellows 
program. This program will provide an opportunity for Federal 
employees, university professors, and graduate students 
interested in equal opportunity, public administration, 
economics, employment law, statistics, and other relevant 
fields to participate in research and projects related to 
eliminating discrimination in the Federal Government.
    EEOC plans to use the fellows program to enhance our 
analytical ability by tapping into the network of experts and 
academicians. As an example, EEOC plans to recruit labor 
economists to the fellows program to provide more in-depth 
analysis of MD-715 work force data, such as discerning trends 
and other longitudinal studies. This will assist EEOC in 
identifying trends and issues such as the SES issue that we are 
discussing today, and will assist EEOC in taking a proactive 
role in preventing discrimination and increasing diversity.
    Thank you.
    [The prepared statement of Mr. Hadden follows:]

    [GRAPHIC] [TIFF OMITTED] T1852.044
    
    [GRAPHIC] [TIFF OMITTED] T1852.045
    
    [GRAPHIC] [TIFF OMITTED] T1852.046
    
    [GRAPHIC] [TIFF OMITTED] T1852.047
    
    [GRAPHIC] [TIFF OMITTED] T1852.048
    
    [GRAPHIC] [TIFF OMITTED] T1852.049
    
    [GRAPHIC] [TIFF OMITTED] T1852.050
    
    [GRAPHIC] [TIFF OMITTED] T1852.051
    
    [GRAPHIC] [TIFF OMITTED] T1852.052
    
    [GRAPHIC] [TIFF OMITTED] T1852.053
    
    [GRAPHIC] [TIFF OMITTED] T1852.054
    
    [GRAPHIC] [TIFF OMITTED] T1852.055
    
    [GRAPHIC] [TIFF OMITTED] T1852.056
    
    [GRAPHIC] [TIFF OMITTED] T1852.057
    
    Mr. Davis of Illinois. Thank all three of you very much.
    Our normal process is to have rounds of 5 minutes of 
questions. Of course, given the fact that nobody is here but 
me, I may end up taking somebody else's round, but let me 
begin.
    Mr. Hadden, let me ask you, to what extent are females and 
minorities represented on the EEOC's Executive Review Board 
which makes the decisions on promotions to career SES, and what 
can be done to make sure that diverse representations on these 
boards exist Government-wide?
    Mr. Hadden. Mr. Chairman, I want to try to understand the 
question. You are talking about EEOC's internal operations?
    Mr. Davis of Illinois. Yes, on the Executive Review Board 
at the EEOC.
    Mr. Hadden. I am going to have to get back to you on that. 
I can talk about the PRB Board, but I am not sure about the ERB 
Board.
    Mr. Davis of Illinois. All right. So if you could get that 
answer for us, we would appreciate it.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1852.058
    
    Mr. Davis of Illinois. You mentioned barrier removal. Could 
you share with us what some of the barriers are regarding 
participation of women and minorities in the SES that agencies 
have identified in their management directive 715 submissions, 
and what steps have agencies reported taking to address these 
barriers?
    Mr. Hadden. There is a wide range of barriers which 
agencies have identified as barriers for women and for 
minorities in the SES, and what we ask agencies to do is to 
look at their individual situation. For example, a barrier 
could constitute how announcements are certainly shared, but 
also, more critically, how developmental opportunities are 
announced. Looking at positions in the 15 and 14 level, how 
opportunities to develop into those SES positions are 
announced. That is one barrier that agencies have identified.
    And then in my testimony I identified agency specifically 
some of the examples that we have encountered and successes 
that agencies have encountered in addressing those barriers.
    Mr. Davis of Illinois. Does the EEO have any plans to make 
any recommendations regarding removal or regarding better 
dissemination of information?
    Mr. Hadden. What we are planning is we are planning to 
publish a report of best practices and share with the Federal 
community what agencies are doing to implement 715, and, in 
particular, you know, one area that we need and will focus on 
are looking at the SES levels. That will be available on our 
website.
    Mr. Davis of Illinois. Thank you very much.
    Ms. Kichak, let me ask you how does the OPM assess the 
diversity of the SES service at each agency and the efforts of 
that agency to improve?
    Ms. Kichak. Our role, particularly through our score card, 
is to see that the agencies have policies in place or they have 
programs in place that will seek to find candidates across a 
diverse pool. We are looking for strong recruiting. So we are 
not evaluating the SES makeup along these lines; what we are 
evaluating is their programs to attract people to the Federal 
work force, including the SES.
    Mr. Davis of Illinois. This is kind of a long set of data, 
that I am going to mention, but according to the central 
personnel data file, as of September 2006, the percentage of 
women in the career SES Government-wide was 28.4 percent and 
the percentage of minorities was 15.9 percent. Of these, 
African Americans constituted 8.6 percent, Hispanics 3.6 
percent, Asian American/Pacific Islanders 2.3 percent, and 
American Indian/Alaska Natives 1.3 percent. While the 
representation of women has increased by about 5 percent and 
minorities by about 2 percent since 2000, the representation of 
African Americans and American Indian/Alaska Natives in the 
career SES has remained largely the same, and the 
representation of Asian American/Pacific Islanders has 
decreased.
    Has OPM seen any particular need? One of the criticisms of 
affirmative action programs and the ideas around them is that 
they have significantly, in some instances, benefited white 
women, but other minority groups have not benefited to the same 
extent. Do you see any particular needs with the other groups 
that are coming up short?
    Ms. Kichak. First of all, our data from the CPF, but it was 
a different time period, shows growth in total for minorities 
in the SES over the last year, so I don't think our data is 
contradicting each other. There has been growth. But the 
minority representation in the SES is certainly lower than in 
the civilian labor force.
    Mr. Davis of Illinois. I don't know how you separate the 
question of minorities, but the growth among African American, 
Alaska Natives/Pacific Islanders has been slower or lower than 
that for white women?
    Ms. Kichak. As far as women are concerned, there is a 
larger percentage of women in the work force to draw from. It 
is close to 50 percent. So there is a bigger pool to pull from. 
Then, if you start to look at other minorities such as African 
Americans, that ratio in the civilian labor force, I believe, 
is around 10.5 percent. I don't have the numbers exactly. But 
it is harder to increase when you have a smaller pool to deal 
from proportionately. But those are numbers.
    We feel that it is very important to keep reaching out. We 
have looked at the representation, as has been discussed by 
both of the witnesses today, in the 13 to 15 range, which is 
where our SESers come from. We feel that it is important to 
continue to reach out and to broaden the pool of people so that 
we have more folks to choose from in the SES. That is why we 
work very hard in succession planning to get more people 
competent to step into these jobs. That is why we have the 
outreach programs that we do, the ads, the awareness, so that 
we can create this big applicant pool and continue to draw from 
the broad diversity and bring additional people into the SES.
    Mr. Davis of Illinois. I think that makes a great deal of 
sense. You are saying that one of the ways to increase the 
opportunities for growth at the level of the SES is to increase 
the pool of applicants below.
    Ms. Kichak. Right.
    Mr. Davis of Illinois. Therefore, you have more people in 
the pool.
    Ms. Kichak. Yes.
    Mr. Davis of Illinois. Well, thank you very much.
    Since Mr. Sarbanes has joined us, I am going to ask if he 
has some questions. I would just yield to him at this moment.
    Mr. Sarbanes. I have no questions at this time, Mr. 
Chairman.
    Mr. Davis of Illinois. All right. Then I have one 
additional question to Mr. Stalcup.
    In the research that you performed for the Government 
Accountability Office, have you come across any incentive 
programs across the Federal Government that encourage senior 
managers or hold managers accountable for diversity in any kind 
of way?
    Mr. Stalcup. Thank you, Mr. Chairman.
    We have done a lot of work that has provided a broad focus 
on the whole initiative of holding leaders accountable. We have 
identified some examples at agencies where these efforts are 
underway, but we have not done as much work or much work at all 
on the results of those efforts.
    We did issue a report in 2005 that discussed leading 
diversity management practices. One of those key practices was 
accountability, and specifically by that we meant that leaders 
are being held responsible for diversity by linking their 
performance and assessment and compensation, to the progress on 
the diversity initiatives within their organization. An example 
in that report talked about how NIH was making progress along 
those lines.
    In one other report in 2004 we talked about the experiences 
of four agencies in trying to inject more accountability at the 
senior levels in terms of performance assessments and in terms 
of compensation. Those agencies involved were NASA, HHS, the 
Center for Disease Control, and Education.
    Again, we have had a lot to say about the importance of the 
initiative that you base your question on. We have not done 
much in terms of how well agencies or how effectively those 
managers are, in fact, being held accountable in the end.
    Mr. Davis of Illinois. Thank you very much. I want to thank 
all three of you. You have been very helpful, and we certainly 
appreciate your coming and sharing testimony with the 
subcommittee. Thank you.
    We will now move to the second panel and ask Ms. Gail 
Lovelace, Ms. Vickers Meadows, Dr. Reginald Wells, and Ms. 
Susan LaChance if you would come and take a seat.
    Ms. Gail Lovelace was named the Federal Government's first 
Chief People Officer on September 1, 1998. In 2003, she was 
appointed to be the GSA's Chief Human Capital Officer in 
accordance with the HCO Act of 2002. In these capacities, Ms. 
Lovelace is responsible for agency-wide human capital 
management and has three closely interrelated programs. She 
leads the agency-wide development and implementation of GSA's 
human capital strategic plan, provides a full range of human 
resources advice and services to all GSA organizations, and 
provides human resources information technology support for a 
number of other Federal agencies, boards, and commissions, in 
addition to providing the same support within GSA.
    Ms. Vickers Meadows serves as Chief Administrative Officer 
since May 2005 for the U.S. Patent and Trademark Office, a 
performance-based agency within the Department of Commerce. As 
the CAO, Ms. Meadows is responsible for the USPTO's human 
capital management, civil rights, and corporate services 
programs. Ms. Meadows is leading the effort to build strong 
human capital strategies and programs for the USPTO, focusing 
on expanding tele-work programs, internal communications, 
hiring, recruitment, and retention.
    Dr. Reginald Wells was named Deputy Commissioner of the 
Social Security Administration [SSA], Office of Human Resources 
effective July 15, 2002, after serving short tenures as Deputy 
Association Commissioner for Disability Program Policy and 
Senior Advisor in the Office of Disability and Income Security 
Programs. Dr. Wells also serves as the Chief Human Capital 
Officer for SSA. In his capacity as Deputy Commissioner for 
Human Resources, Dr. Wells oversees a staff complement of 400 
employees, with an operating budget of $100 million.
    Ms. Susan LaChance was named vice president of Employee 
Development and Diversity for the U.S. Postal Service in May 
2005. In this role, Ms. LaChance reports to the Chief Human 
Resources Officer and executive vice president and is 
responsible for employee and leadership development, succession 
planning, equal opportunity, equal employment opportunity, and 
diversity initiatives.
    Let me thank all four of you for being here. Of course, it 
is the policy that all witnesses are sworn in, so if you would 
stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Davis of Illinois. The record will show that each 
witness answered in the affirmative.
    Let me thank you very much. Of course, your entire 
statement will be in the record. We ask that you summarize your 
presentation into 5 minutes. We all know the meaning of the 
green light simply means go, the yellow light means you are 
just about there, and, of course, the red light means stop.
    We will begin with Ms. Lovelace.
    Thank you all so much.

   STATEMENTS OF GAIL LOVELACE, CHIEF HUMAN CAPITAL OFFICER, 
    GENERAL SERVICES ADMINISTRATION; VICKERS MEADOWS, CHIEF 
   ADMINISTRATION OFFICER, U.S. PATENT AND TRADEMARK OFFICE; 
     REGINALD WELLS, DEPUTY COMMISSIONER, SOCIAL SECURITY 
ADMINISTRATION; AND SUSAN LACHANCE, VICE PRESIDENT OF EMPLOYEE 
         DEVELOPMENT AND DIVERSITY, U.S. POSTAL SERVICE

                   STATEMENT OF GAIL LOVELACE

    Ms. Lovelace. Good afternoon, Chairman Davis and members of 
the subcommittee. I appreciate the opportunity to be here with 
you today on behalf of the General Services Administration.
    Since its establishment in 1949, GSA has served as the 
Federal Government's premier acquisition agency. During the 
1970's, almost 40,000 employees worked at GSA. Today, we are an 
organization of 12,000 that relies on a highly competent and 
engaged work force to accomplish its mission. We strive to 
ensure that all GSA employees receive training and development, 
performance feedback, leadership support, and guidance in a 
supportive work environment to foster and engage a highly 
productive work force. That is evident in the fact that GSA was 
just recently named as one of the best places to work in the 
Federal Government for the third consecutive rating period.
    In their 2003 report, GAO warned of the impacts of an aging 
work force, particularly in the SES. Specifically, they stated 
that more than half of the career SES members that were 
employed on October 2000 will have left service by October 1, 
2007. In this report they also estimated by the start of fiscal 
year 2008 GSA's percentage of women members in the SES would 
increase from 28.6 to 32.9, and that the percentage of racial 
and ethnic minorities would decrease from 14.3 to 12.9.
    As of April 15th of this year, the numbers estimated by GAO 
for GSA are close. We currently have 83 members on board, 27 
percent female and 13 percent minority.
    The GAO report further suggested that the wave of near-term 
retirements and other attrition will provide the Federal 
Government with both a challenge and an opportunity. We, 
wholeheartedly concur with this finding, particularly as we 
face 31 current vacancies, or 27 percent of our current SES 
work force, and we expect that SES members will continue to 
leave the agency.
    In response to the President's management agenda and the 
strategic management of human capital, GSA has established a 
comprehensive human capital strategic plan that provides a 
well-rounded framework to evaluate and continually improve 
human capital programs, processes, and operations.
    Improving work force recruitment, executive leadership, and 
diversity are three of our seven human capital goals. It is 
GSA's goal to ensure that we have a diverse work force that 
reflects society, not only in the SES but across the agency. We 
do believe our work force is diverse. Woman comprise 49 percent 
of the work force. Our work force representation among all 
groups is high in comparison to the civilian labor force 
statistics, except for our Hispanic work force.
    In terms of the SES, GSA has allocated 114 positions. As of 
April 15th, 83 of them are filled, leaving 31 vacancies. 
Currently, 27 percent are women, 13 percent are minority.
    GSA's ability to hire new members was impacted by changes 
in the organization, much of which is outlined in the statement 
for the record.
    At the same time, GSA has been undergoing significant 
organizational change. All of this has impacted our ability to 
fill some of our positions.
    During the current fiscal year, our efforts in increasing 
diversity within the SES have been nominally successful, as 36 
percent of our new hires have been female and 9 percent 
minority.
    At the GS-14 and 15 level, the pool of potential women and 
minority SES candidates has remained relatively stable over the 
last few years. Currently, 41 percent of the employees at the 
grade 14 are women and 29 percent are minority. At the GS-15 
level, 39 percent are women and 20 percent are minority.
    GSA has focused a lot of its attention on the development 
of our staff and not just on our outreach efforts. We have 
undertaken a leadership institute where we are, in fact, giving 
advantages to our employees to be prepared to move into the SES 
positions. Of our graduates of these various programs, 89 
percent are still employed with GSA, 42 percent have received 
promotions, 20 percent of those graduates are minorities, and 
46 percent are female.
    I am pleased to be here with you this afternoon to share 
with you some of the information related to GSA. While we 
represent a very small proportion of the Government-wide total 
of employees, we believe it is our strength of the diverse work 
force that will ensure our continued success.
    Thank you. I would be happy to answer any questions.
    [The prepared statement of Ms. Lovelace follows:]

    [GRAPHIC] [TIFF OMITTED] T1852.059
    
    [GRAPHIC] [TIFF OMITTED] T1852.060
    
    [GRAPHIC] [TIFF OMITTED] T1852.061
    
    [GRAPHIC] [TIFF OMITTED] T1852.062
    
    [GRAPHIC] [TIFF OMITTED] T1852.063
    
    [GRAPHIC] [TIFF OMITTED] T1852.064
    
    [GRAPHIC] [TIFF OMITTED] T1852.065
    
    [GRAPHIC] [TIFF OMITTED] T1852.066
    
    Mr. Davis of Illinois. Thank you very much. We will go 
directly to Ms. Meadows.

                  STATEMENT OF VICKERS MEADOWS

    Ms. Meadows. Thank you, Mr. Chairman and members of the 
subcommittee. I appreciate the opportunity to testify on 
diversity of senior management at the U.S. Patent and Trademark 
Office.
    The PTO mission is to foster innovation and competitiveness 
by providing high-quality and timely examination of patent and 
trademark applications, guide domestic and international 
intellectual property policy, and deliver intellectual property 
information and education worldwide.
    Fiscal year 2006 was a record-breaking year for PTO. Our 
patent organization broke virtually every record tracked by 
GPRA by improving quality, efficiency, e-filing, hiring, 
training, and hoteling.
    Currently, there are 49 Senior Executive Service members, 
16 are women, 4 are black, 2 are Asian. With more than 9,000 
employees projected by the end of this fiscal year and plans to 
hire an additional 8,400 patent examiners over the next 6 
years, we expect our history of expanding diversity to 
continue.
    The vast majority of our SES and top-level management 
positions at PTO are highly specialized. Of more than 8,000 
current employees, 577 are attorneys, 5,846 are engineers and 
scientists. Our executive members in the patent business area 
manage a work force composed largely of scientists and 
engineers. Those in the trademark area direct the staff of 
trademark attorneys.
    In addition to skills normally required for upper-level 
management, our executives must possess both the technical 
knowledge required to direct a professional work force and a 
high degree of specialized knowledge about intricate, often 
complex, examination rules, regulations, and procedures. Much 
of the specialized knowledge can only be acquired through years 
of experience at PTO. As a result, virtually all of our patent 
and trademark management positions are filled from within the 
PTO ranks; however, there are a few SES positions, like my own, 
that are in the financial, administration, or information 
technology field.
    Diversity is likely to increase in PTO's SES ranks because 
of the underlying diversity of the pool of patent and trademark 
professionals from which many of our future senior executives 
are likely to be drawn. Our current work force presents a 
recruitment pool of over 2,200 professionals at the GS-14 and 
15 levels, most of whom occupy supervisory or management 
positions. Of this total, 963 are women, 387 are black, 817 are 
Asian, 85 are Hispanic, and 16 are Native American.
    In order to enhance their qualifications for SES 
membership, many patent and trademark professionals have taken 
advantage of managerial, supervisory, leadership, and executive 
management training, and developmental assignments offered or 
funded by PTO.
    PTO also has a robust recruitment program. We participated 
in 27 events in 2006 where recruitment of minorities and women 
was the focus. For example, we visited Howard University, 
Morgan State University, Ohio State University, MIT, and 
Florida State University. In many cases, organizations like the 
National Society for Black Engineers, Society for Women 
Engineers, Society of Hispanic Professional Engineers, and the 
American Indian Science and Engineering Society were our hosts.
    Our priority is always to select the best-qualified person, 
regardless of race, national origin, sex, or religion for each 
position that we fill. Because we have so many talented women 
and minorities in our senior supervisory and managerial ranks, 
we are confident that many of them will rise to the SES level.
    In addition, we will continue to conduct the broadest 
possible searches for our financial, administrative, and 
information technology SES vacancies.
    Finally, Mr. Chairman, I would like to extend an invitation 
to you and all subcommittee members to attend PTO's 12th Annual 
Community Day Celebration scheduled for June 7th this year. 
Held on our Alexandria campus grounds, this county fair type 
event highlights the diversity of our work force with ethnic 
foods, games, educational resources, fashion show, and parade. 
The PTO managers primarily staff this agency-wide event with 
virtually all PTO's employees participating. We hope that you 
will be able to come as a witness to this display of openness 
and inclusion in our agency.
    I appreciate this opportunity to share information with the 
subcommittee regarding PTO's commitment to promote diversity in 
its work force. If you have any questions, I would be pleased 
to answer them.
    [The prepared statement of Ms. Meadows follows:]

    [GRAPHIC] [TIFF OMITTED] T1852.067
    
    [GRAPHIC] [TIFF OMITTED] T1852.068
    
    [GRAPHIC] [TIFF OMITTED] T1852.069
    
    [GRAPHIC] [TIFF OMITTED] T1852.070
    
    [GRAPHIC] [TIFF OMITTED] T1852.071
    
    Mr. Davis of Illinois. Thank you very much. We will go to 
Dr. Wells.

                  STATEMENT OF REGINALD WELLS

    Mr. Wells. Thank you, Mr. Chairman and members of the 
subcommittee. On behalf of Social Security Commissioner Michael 
Astrue, I appreciate this opportunity to share with you the 
Social Security Administration's efforts to achieve diversity 
in the agency's Senior Executive Service Corps. I am Reginald 
Wells and I am SSA's Deputy Commissioner for Human Resources 
and Chief Human Capital Officer.
    SSA is a diverse organization that mirrors the public we 
serve. In order to fulfill our mission and provide the kind of 
service that the public expects, we must understand its needs. 
This takes high-performing, well-trained, and well-equipped 
staff, from the front-line office workers to the highest 
executives. We believe that having a diverse work force that 
reflects the demographics of the people we serve increases the 
public's confidence in the agency's ability to meet its needs. 
It also enhances the agency's capability to conduct business in 
the most effective and efficient manner.
    SSA's work force consists of about 62,000 employees working 
in 1,500 installations nationwide. Of our employees, 70 percent 
are women. Of our work force, 47 percent are members of a 
minority group, compared to 31.8 percent in the rest of 
Government and 27.4 percent of the national civilian labor 
force. I am especially pleased to report that SSA's minority 
representation for all groups exceeds their representation in 
the national civilian labor force.
    Like many Government agencies, we continue to face the 
realities of an aging work force. The average age of an SSA 
employee is 47, so there is an inevitable wave of retirements 
that must be addressed. SSA retirements are expected to peak 
between 2008 and 2010, with nearly 22 percent of the work force 
electing to retire. This translates to approximately 2,700 
employees per year. And 39 percent of overall staff and 66 
percent of SES and GS-14s and 15s will be eligible for 
retirement by 2010. We project that we will need to replace 
nearly 43 percent of the work force by 2015.
    At SSA we have viewed these realities as an opportunity to 
expand diversity of our work force. Our priority is always to 
select the best-qualified individual, regardless of race, 
national origin, sex, or religion. Since 2002, we have hired 
18,328 employees. Of those, more than 57 percent were women, 
6.6 percent were individuals with disabilities, 27.6 percent 
were African Americans, 16.5 percent were Hispanics, 7.3 
percent were Asian Americans and Pacific Islanders, and 1.2 
percent were American Indians and Alaska Natives.
    While having a diverse work force at the service delivery 
level is important, we believe that it is equally important to 
have diversity throughout the management and executive ranks. 
In spite of the large number of retirements among our SES 
corps, we have generally been able to maintain our level of 
minority representation in the SES.
    I must tell you that, since the beginning of the current 
fiscal year, we have lost 14 executives, 43 percent of whom 
were minorities and 36 percent of whom were women. Fortunately, 
SSA is well positioned to replenish the leadership ranks with 
minority candidates. As a result of our aggressive recruiting 
efforts and comprehensive developmental programs, I believe we 
will be able to maintain a highly qualified and diverse work 
force.
    OPM has recognized our leadership programs as among the 
best practices in Government, and our programs are continually 
benchmarked and mirrored by other agencies. The programs are 
structured and managed to emphasize development of recognized 
Government-wide leadership competencies. While SSA has a long 
and successful tradition of developing leadership from within, 
we also attract executive talent from other public and private 
sector sources.
    In closing, let me emphasize SSA's pride in its work force 
and proactive model we have adopted to promote diversity among 
employees. We are firmly committed to continuing our efforts to 
build a work force that reflects the face of our Nation. We 
believe that our pride in our work force and our commitment to 
diversity is part of the reason that SSA was recently named one 
of the top ten places to work in Government.
    The business case for diversity in our work force is 
convincing. We believe that for these reasons we are in a 
position to maintain a highly qualified and diverse work force 
at all levels of the agency.
    Thank you. I will be glad to answer any questions you may 
have.
    [The prepared statement of Mr. Wells follows:]

    [GRAPHIC] [TIFF OMITTED] T1852.072
    
    [GRAPHIC] [TIFF OMITTED] T1852.073
    
    [GRAPHIC] [TIFF OMITTED] T1852.074
    
    [GRAPHIC] [TIFF OMITTED] T1852.075
    
    [GRAPHIC] [TIFF OMITTED] T1852.076
    
    [GRAPHIC] [TIFF OMITTED] T1852.077
    
    [GRAPHIC] [TIFF OMITTED] T1852.078
    
    Mr. Davis of Illinois. Thank you very much, Dr. Wells.
    We are going to be able to get Ms. LaChance in before we 
have to run off and vote.

                  STATEMENT OF SUSAN LACHANCE

    Ms. LaChance. Thank you, Chairman. Good afternoon, Chairman 
Davis and members of the subcommittee. I am Susan LaChance, 
vice president of employee development and diversity for the 
U.S. Postal Service, and it is my pleasure to be here today to 
share with you the Postal Service's commitment to a diverse and 
inclusive work force.
    The diversity in the Postal Service reflects the diversity 
of America, and for us diversity includes not only individual's 
race, color, national origin, and sex, but also other 
attributes such as the background, education, life experiences, 
and perspectives.
    We recognize that only with a work force that represents 
America and the communities that we serve can we effectively 
support the needs of our customers in the 21st century.
    Today the Postal Service is one of the leading employers of 
minorities and women. We have 26 percent of our executives who 
are minorities and 29 percent are women. We have seen increases 
in the participation rates of females and black males in our 
officer corps, and increases in the participation rates of 
females, black females, Asian American, Pacific Islanders, and 
Hispanic males in our executive ranks. However, we recognize we 
face key challenges in recruiting, retaining, and developing a 
diverse work force in the future.
    Our diversity professionals are key partners in this 
effort. They cast a recruiting network as wide as possible by 
participating in minority job fairs, actively recruiting 
veterans and military personnel, and recruiting at colleges and 
universities. Additionally, they provide one-on-one sessions 
with employees interested in development. They hold career 
awareness conferences and workshops to help employees prepare 
job applications and fine-tune their interviewing skills. And, 
most importantly, they are integral partners in career 
development and succession planning.
    The Postal Service has developed a whole career approach to 
learning, leadership development, and talent management. The 
advanced leadership program seeks to develop high-performing 
employees with a desire and a potential to assume future 
leadership roles. Our executive development program is designed 
to reinforce our executive competency model. It builds on 
leading best practices and provides participants with coaching 
and mentoring by our senior officers.
    Our corporate succession planning process identifies high-
potential employees for executive positions and provides 
tailored development. This standardized process is open to 
self-nomination and reflects our commitment to inclusiveness.
    We realize that our development programs need to reach 
further down into our organization in order to identify talent 
for our leadership pipeline. We are doing this through our EAS 
leadership development process. Known as ELD, it helps create a 
pool of qualified employees ready to fill future managerial and 
leadership positions competitively.
    The Postal Service has always had a strong culture of 
developing employees from within. Out of our 40 officers, 21 
began as craft employees, while another 4 began their careers 
in one of our structured development programs. Perhaps our 
Postmaster General, Jack Potter, best illustrates the 
effectiveness of this approach to developing postal employees. 
Jack joined the Postal Service as a clerk in New York. He 
served as our Chief Operating Officer, Vice President of Labor 
Relations, and in a number of other senior positions.
    Delores Killette is another example. Ms. Killette has held 
a number of managerial positions in the D.C. metro and 
Baltimore district, and she was that 39th Postmaster of 
Washington. She is now our consumer advocate and vice president 
of consumer affairs.
    For more than 200 years the Postal Service has provided 
individuals from a variety of cultural and socio-economic 
backgrounds with the opportunity of earning a living, 
supporting their families, and developing their careers, and 
serving their country. We proudly continue this tradition.
    I will be very pleased to answer any questions of the 
committee.
    [The prepared statement of Ms. LaChance follows:]

    [GRAPHIC] [TIFF OMITTED] T1852.079
    
    [GRAPHIC] [TIFF OMITTED] T1852.080
    
    [GRAPHIC] [TIFF OMITTED] T1852.081
    
    [GRAPHIC] [TIFF OMITTED] T1852.082
    
    [GRAPHIC] [TIFF OMITTED] T1852.083
    
    [GRAPHIC] [TIFF OMITTED] T1852.084
    
    [GRAPHIC] [TIFF OMITTED] T1852.085
    
    [GRAPHIC] [TIFF OMITTED] T1852.086
    
    [GRAPHIC] [TIFF OMITTED] T1852.087
    
    Mr. Davis of Illinois. Well, thank you all so very much. I 
also want to thank the Members for their patience and 
indulgence.
    It is my understanding that we have five votes, the first 
of which is a 15-minute vote and then the others will be 5-
minute votes, which means that we are probably going to be gone 
for at least 40 minutes. So let me thank you all so much and, 
Members, thank you for being here. We have to run off and vote.
    [Recess.]
    Mr. Davis of Illinois. The committee is back in session.
    We had a little intrigue. Somebody wanted to have a secret 
vote. We haven't figured out what that one was about, but 
somebody wanted to clear everybody out of the House except the 
Members so that we could discuss something in secret. 
Fortunately, more people decided that they didn't want to do 
that than those who did.
    Let me just thank you, though, for your patience and for 
still being here.
    I will begin with a few questions that I have.
    Ms. Lovelace, let me start with you. The number of career 
SES at GSA has decreased from 84 in 2000 to 71 in 2006. Are 
additional changes in the number of career SES expected over 
the next several years? And, if so, how might this affect 
diversity in the career SES?
    Ms. Lovelace. Well, we don't expect a chance in the number 
of SESers we have, but we expect that people will turn over in 
those positions. You may know that our positions are actually 
allocated to us from OPM and there is a certain number that are 
allocated as non-career, some as career. Those numbers are not 
changing, as best I know right now, so right now our challenge 
is keeping those jobs filled with qualified people to carry out 
the mission.
    Mr. Davis of Illinois. And does the GSA have a candidate 
development program?
    Ms. Lovelace. We don't have a candidate development 
program, per se. We have something called an advanced 
leadership development program, which is similar, but you just 
don't get a certain qualification that OPM stamps on people 
that are in formal candidate development programs.
    Mr. Davis of Illinois. And so that is the reason that you 
don't feel the need to have a formal program? I mean, you have 
a similar program?
    Ms. Lovelace. We have a similar program. Because our 
numbers are so small, we didn't want to make that kind of 
investment into a candidate development program, but it is so 
similar we might as well go on ahead and do it.
    Mr. Davis of Illinois. I am just sort of assuming, then, 
that there really is not, in the estimation of the agency, a 
need because of the numbers and also because of the experiences 
that you are having relative to progress that is being made?
    Ms. Lovelace. We think we are making good progress in our 
programs to develop people for these leadership positions. We 
have a good cross mix of people that we believe we are 
preparing to fill many of the jobs that we have.
    Mr. Davis of Illinois. Thank you very much.
    Let me go to Ms. Meadows.
    Ms. Meadows, the Patent and Trademark Office has been a 
performance based organization. I guess people called them PBOs 
for a few years. Of course there is controversy around 
performance based activity. Could you tell us how the status 
has, if at all, affected work force diversity within the 
agency?
    Ms. Meadows. Mr. Chairman, I would say that it has probably 
enhanced work force diversity, and certainly awareness, through 
our performance appraisal programs at the USPTO. We are holding 
our executives much more accountable to results. Diversity is a 
part of the leadership component to our performance appraisal 
plans, and I think, because we are more results oriented under 
our performance based status, that our executives are held more 
accountable.
    Mr. Davis of Illinois. Some agencies have mentoring 
programs to prepare mid-level employees for possible future 
executive status by pairing them with mentors who can provide 
advice and guidance. Does the PTO have such a program?
    Ms. Meadows. We do have a mentoring program in our patent 
corps, but that is more geared toward the patent examining 
process. We are in the process of developing a leadership 
development program at the Patent and Trademark Office which 
will include aspiring leaders at the 9 to 11 level, then go on 
to the executive leadership program at the mid-manager level, 
and all the way up to a senior executive program. We are 
looking to put together our own SES candidate development 
program.
    We have had plans to do that in the past. There are a lot 
of training opportunities at the U.S. Patent and Trademark 
Office for our managers and our future leaders, but we want to 
formalize a program, and right now we have the resources to do 
that and are actively engaged with a contractor to develop a 
program for our office.
    Mr. Davis of Illinois. Do you know how many minorities and 
women are involved in the mentoring program, I mean, how many 
are actually being mentored?
    Ms. Meadows. No, sir. In the existing mentoring program?
    Mr. Davis of Illinois. Yes.
    Ms. Meadows. Well, no, sir, I don't know that number.
    Mr. Davis of Illinois. Dr. Wells, let me ask you, central 
personnel data file as of September 2006, the percentage of 
women in the career SES at the Social Security Administration 
was 39.6, and the percentage of minorities was 29.9. Of these, 
African Americans made up 21.5 percent, Hispanics 7.7 percent, 
Asian American/Pacific Islanders none, and American Indian/
Alaska Natives 0.7 percent. To what extent do these 
representation levels represent significant progress in recent 
years, and what might be needed to increase these numbers?
    Mr. Wells. Well, Mr. Chairman, I think I guess the first 
thing I would say is that we are, like a lot of agencies, 
struggling under the retirement wave to hold our numbers where 
they are. I think we have been successful as an organization 
because we do put so much attention into tracking our diversity 
and working through our recruitment campaigns to make sure that 
we always have a very rich applicant pool to choose from.
    In terms of what would need to be done to improve that 
situation that you described, I think we have actually been 
doing it. We are fortunate enough as an organization to have 
some well-defined career development programs and we do operate 
a Senior Executive Service candidate development program.
    But we also have a very rich applicant pool at the GS-15 
and 14 levels which, of course, are the feeders for those 
people, at least within our organization, that we would 
consider for Senior Executive positions.
    All of those groups are showing increases over where we 
were in 2003, so, while we are just holding our own with regard 
to our Senior Executive corps and, as I mentioned, we have a 
fair number of vacancies right now, mainly because of the 
retirement wave but also we are still working through the 
transition from Commissioner Barnhart to Commissioner Astrue, 
and during that kind of transition it takes a while for the new 
Commissioner to come in and sort of get a sense for what the 
needs are and then actually move to fill those. But we believe 
that there will be a lot of applicants, either through our 
Senior Executive Service candidate development program or our 
GS-15 cadre. All categories are showing increases over where we 
have been. So I think we feel like we are postured well to 
replenish the ranks and probably even exceed where we were in 
2003.
    Mr. Davis of Illinois. Recognizing that all of us are 
concerned about the number of retirements and people reaching 
the age where I guess they won't have to work, is there a 
serious succession planning program or effort underway at GSA?
    Mr. Wells. I am sure GSA, too. But at SSA absolutely. In 
fact, what I was going to say is that the Office of Personnel 
Management, as part of the President's management agenda, has 
really encouraged and actually required agencies to be doing 
more in the way of formal succession planning and succession 
management, and so at Social Security we are very much engaged 
in that.
    We have been pretty gratified that our field structure in 
particular, those regional offices that we have around the 
country, have been really excited about this and are doing some 
pretty impressive things in terms of assessing what their needs 
are going to be and then taking a look at what the potential 
talent is at the regional level and beyond and really setting 
the stage for, I think, what will be our ability to continue to 
replenish our ranks with qualified minority candidates.
    Mr. Davis of Illinois. And you are a serious large agency--
--
    Mr. Wells. We are.
    Mr. Davis of Illinois [continuing]. In terms of the number 
of people that you employ.
    Mr. Wells. We are 62,000 strong.
    Mr. Davis of Illinois. Yes. And so you have no 
responsibility for what anybody else does, but do you think 
that your agency perhaps could be looked at by others as not 
necessarily a model but certainly something that they might 
look at to see how it is done?
    Mr. Wells. I tend to think of us as engaging and practicing 
a lot of very promising approaches to these kinds of human 
capital issues, and we always welcome other agencies or even 
private organizations, for that matter, benchmarking some of 
the things that we do.
    I do think we try really hard to strategically manage our 
human capital, and I think there has been, I think, really good 
foresight in the leadership of the organization. As I always 
say, necessity is the mother of invention, and I think the 
leadership at SSA, over time, has been real concerned about the 
ability to always have sufficient numbers of workers, first of 
all, but also the composition of that work force, because we do 
serve the American public and you want your work force to be as 
much a mirror of that public as it can be.
    Mr. Davis of Illinois. Thank you very much.
    Ms. LaChance, how does the U.S. Postal Service, not 
necessarily being what we would call a Federal agency, but a 
pseudo, in a sense, how does the Postal Service monitor the 
diversity of its workplace?
    Ms. LaChance. Chairman, while we are not necessarily 
considered a Federal agency following all of OPM's rules, we 
are required to follow the guidelines as set forth by the EEOC 
in MD-715, and that requires us to really look at the diversity 
of our work force overall, as well as to evaluate all of our 
personnel practices and employment practices to ensure that we 
have nothing that would get in the way for fair and equal 
treatment and an inclusive workplace.
    Mr. Davis of Illinois. Succession planning, I think 
everybody recognizes to an extent the need for it. How 
important does the Postal Service view this area as being, and 
what is being done to prepare for future management personnel?
    Ms. LaChance. The Postal Service has actually had 
succession planning for a number of years, and one of the 
things that we have done really has been look constantly back 
at the practices of succession planning, trying to improve it.
    Many years ago we had what we called a closed succession 
planning process whereby individuals didn't know whether or not 
they were being considered as a succesioner. In around 2003 we 
went to an open succession planning process where it kind of 
enforces our whole philosophy of inclusion, and individuals are 
allowed to make application and make it be known that they are 
interested in taking on additional responsibilities.
    The second piece of that is that we have really focused in 
going beyond just having a name on a list to really looking at 
individuals that have skills and competency gaps and working on 
individualized development plans to assist them to be the best 
when an opportunity would be considered, come up for them.
    Mr. Davis of Illinois. And I guess my last question is: to 
what extent does the Postal Service actually devote resources 
to diversity initiatives? I mean, does it really put money into 
initiatives to develop programs that are going to help move 
forth the desired results?
    Ms. LaChance. Chairman, I would describe our focus on 
diversity initiatives to be perhaps three-fold. One would be 
the focus in on resources in general, and by resources I would 
call that people. We have diversity development specialists who 
we really rely on that are located throughout the Nation, as 
well as at our headquarters and area offices, that assist us in 
getting the message out. For us, inclusion means making people 
know that the opportunity exists, and awareness is critical, so 
the resource is there to get that message out.
    The other piece as far as resources, I would call resources 
time and effort. Our senior officers participate in an awful 
lot of activities that go on, both with what we call our 
affinity groups--under our Heritage Coalition we have the 
Hispanic Organization of Postal Employees, the African American 
Postal Employees Organization, as well as Asian American. Our 
officers and our managers participate in activities that they 
sponsor to create awareness among their membership.
    We also put a lot of time and effort and dollars throughout 
the Nation in what we call career awareness conferences, 
assisting our own employees to be better prepared and know what 
opportunities are available.
    Mr. Davis of Illinois. Well thank you all so very much. 
Again, I really appreciate your patience and the fact that you 
were able to wait until we returned from voting. I appreciate 
your participation. Thank you very much.
    Ms. LaChance. Thank you.
    Ms. Meadows. Thank you.
    Mr. Wells. Thank you.
    Ms. LaChance. Thank you.
    Mr. Davis of Illinois. And, of course, our last group, the 
real troopers. Let me introduce our last panel, panel three.
    Mr. William Bill Brown has served as national president of 
the African American Federal Executive Association Inc. since 
its founding in 2002. AAFEA promotes the professional 
development and advancement of African Americans into and 
within the senior levels of the U.S. Government. It sponsors an 
annual executive leadership and training conference and 
advocates for programs, policies, practices, and processes that 
promote career-enhancing opportunities for African Americans. 
Membership consists of active and retired Federal employees in 
grades GS-13 through the SES.
    Ms. Rhonda Trent is the current president of Federally 
Employed Women. Federally Employed Women is an organization 
that works as an advocacy group to improve the status of women 
employed by the Federal Government and by the District of 
Columbia Government. Ms. Trent is a contracting officer 
assigned to the Joint Strike Fighter Program in Crystal City, 
VA. Rhonda Trent has long been active in the FEW, holding 
chapter, regional, and National offices.
    Mr. Gilbert Sandate is a senior policy associate with the 
National Association of Hispanic Federal Executives. Mr. 
Sandate is the former Director, Office of Workforce Diversity 
for the Library of Congress, Washington, DC. In this capacity 
he served as the Library's senior expert on work force 
diversity, equal employment opportunity, alternative dispute 
resolution, and ADA accommodation matters. He retired from the 
Federal Service in June 2006, as a member of the Career Senior 
Executive Service after a distinguished 34-year Government 
career.
    Ms. Darlene Young is the current president of the National 
Association of Blacks in Government. Ms. Young was elected to 
office in January 2005 and was re-elected to a second term in 
January 2007. Blacks in Government was organized in 1975 and 
incorporated as a nonprofit organization under the District of 
Columbia jurisdiction in 1976. BIG has been a National response 
to the need for African Americans in public service to organize 
around issues of mutual concern and use their collective 
strength to confront workplace and community issues. Ms. Young 
is currently employed at the U.S. Department of State as a 
computer specialist.
    Last, but not least in any way, is Mr. William Bransford. 
He is currently the general counsel and lobbyist for the Senior 
Executives Association. Mr. Bransford is a partner in the law 
firm of Shaw, Bransford, Veilleux and Roth, P.C., where he has 
practiced since 1983. His practice is concentrated on the 
representation of Federal executives, managers, and employees 
before the U.S. District Courts, the Merit System Protection 
Board, the Equal Employment Opportunity Commission, the Office 
of Special Counsel, Offices of Inspector General, and with 
offices that adjudicate security clearances.
    Let me thank all of you.
    As is our custom of this committee and all of our 
committees, we swear in the witnesses.
    [Witnesses sworn.]
    Mr. Davis of Illinois. The record will show that each 
witness answered in the affirmative.
    We thank you so very much, again, for staying and for being 
here.
    Your entire statement is in the record, and so if you would 
summarize in 5 minutes we would appreciate that. Of course, the 
green light indicates 5 minutes, the yellow light means your 
time is running down, 1 minute, and the red light means that we 
have finished.
    Mr. Brown, would you begin?

   STATEMENTS OF WILLIAM BROWN, PRESIDENT, AFRICAN AMERICAN 
   FEDERAL EXECUTIVES ASSOCIATION; RHONDA TRENT, PRESIDENT, 
   FEDERALLY EMPLOYED WOMEN; GILBERT SANDATE, SENIOR POLICY 
ASSOCIATE, NATIONAL ASSOCIATION OF HISPANIC FEDERAL EXECUTIVES; 
  DARLENE YOUNG, PRESIDENT, BLACKS IN GOVERNMENT; AND WILLIAM 
   BRANSFORD, GENERAL COUNSEL, SENIOR EXECUTIVES ASSOCIATION

                   STATEMENT OF WILLIAM BROWN

    Mr. Brown. Good afternoon, Mr. Chairman, subcommittee 
members, and staff.
    As you mentioned, I am president of the African American 
Federal Executive Association, Inc. AAFEA was founded in 2002 
by myself and three other members of the Senior Executive 
Service. We have one purpose: the professional development and 
advancement of African Americans into the senior executive 
levels of Government.
    We have held three national conferences and training 
workshops attended by over 550 Federal employees. At these 
training events, African American senior executives conducted 
workshops and counseled and mentored all the African Americans 
seeking SES positions.
    We also use these conferences to obtain further insight 
into many of the challenges facing African Americans as they 
strive to compete for SES positions.
    With that as a backdrop, I would like to comment on SES 
diversity in the Federal Government. Currently, there are 6,100 
SES positions in the Federal Government. Only 200, or 3.2 
percent of these positions, are occupied by African Americans. 
This appalling statistic has remained constant for the last 
seven or 8 years, despite increased emphasis on training, 
temporary assignments, and other initiatives.
    These statistics clearly support the position our 
organization and myself, in particular, articulated in 2003 
during a Congressional hearing, that the reason our Federal 
work force is not adequately diversified is not because of lack 
of training, but due to flaws in the selection process.
    Many of our members have accepted temporary assignments, 
moved their families across country, and in some cases outside 
the country, obtained advanced degrees at their own expense, 
while others have had their education supported by their 
agency, and gone the extra mile in hopes of advancing to the 
next level of Federal service, only to be denied that 
opportunity by selecting officials.
    Over the next 10 years, approximately 89 percent of the 
Federal work force is expected to retire. AAFEA recommends the 
following steps be taken so that the resulting replacement work 
force will represent the mosaic of America:
    One, we recommend that this subcommittee champion 
legislation mandating that, for positions in grades GS-14, 15, 
and SES, Federal agencies must use panels comprised of three 
people to screen and select all individuals. At least one 
member of each panel would be required to be a minority. The 
panel would be required to provide written justification for 
their recommendation, and the agency head would have to approve 
the selection. This process will cause selecting officials to 
take diversity seriously, and it will hold agency heads 
accountable.
    Two, we recommend that this subcommittee task the 
Government Accountability Office with conducting a formal, 
detailed study on diversity in Federal agencies by grade, 
ethnicity, and age. Current OPM reports group all minorities in 
grades 14, 15, and SES together. This presents a distorted view 
of diversity and makes it impossible to determine makeup or 
progress by ethnicity. We need an accurate baseline to measure 
progress.
    Three, we recommend that you pass legislation requiring all 
temporary assignments or details exceeding 120 days be filled 
in the same manner as permanent positions. Too often we hear of 
individuals being pre-positioned for promotion by being 
temporarily detailed to a vacancy, gaining competitive 
advantage over other possible candidates.
    Four, we recommend OPM's candidate development program be 
expanded and fully funded to accommodate 200 positions. We 
applaud OPM for launching this program; however, over, 5,000 
applicants applied for 20 slots, making chances of being 
selected difficult to impossible.
    Five, our final recommendation is about reward and 
recognition. We recommend establishment of an annual Federal 
SES diversity award to be presented to the Federal agency that 
achieved the most diverse SES work force over the past year. 
This would encourage and promote diversity and reward and 
recognize agencies that take steps to increase diversity in 
their senior ranks.
    Mr. Chairman, I thank you for the opportunity to appear 
before this subcommittee. I would be happy to answer any 
questions.
    [The prepared statement of Mr. Brown follows:]

    [GRAPHIC] [TIFF OMITTED] T1852.088
    
    [GRAPHIC] [TIFF OMITTED] T1852.089
    
    [GRAPHIC] [TIFF OMITTED] T1852.090
    
    [GRAPHIC] [TIFF OMITTED] T1852.091
    
    Mr. Davis of Illinois. Thank you very much, Mr. Brown.
    We will next go to Ms. Trent.

                   STATEMENT OF RHONDA TRENT

    Ms. Trent. Thank you so much. Federally Employed Women, 
FEW, very much appreciates the opportunity to participate in 
this important hearing on behalf of the 1.2 million women 
employed in the Federal Government and military. We thank 
Chairman Danny Davis and the other legislators serving on this 
subcommittee for inviting us today.
    Progress in diversity: we are happy to see that between 
1992 and 2003 women made progress in moving into the SES, 
moving up to 26.2 percent of total SES employees. Further, the 
representation of women at the higher general schedule grades 
and at senior pay levels increase. However, we would suggest 
that these numbers should move higher to better reflect the 
percentage of women and all minorities employed in the Federal 
Government overall.
    As of December 2005, women represented 47.1 percent of the 
Federal work force, yet, according to the December OPM 
statistics, December 2006, women only make up 28.7 percent of 
the career SES and 34.8 percent of all employees in grades 13 
through 15. Increasing the ranks of women in the SES by 2 
percent over 4 years is simply not good enough.
    FEW suggests the following for improvements. We have 
queried all of our members and our leadership and offer the 
following suggestions that could help the improvement of the 
ability of women and minorities to move up through the ranks 
into the SES by training. By far, our FEW members cited the 
lack of training and cross-training as a major obstacle to 
women moving into the top levels of the Federal Government. 
There are several areas in which training can be improved for 
women aspiring to move up in the ranks.
    First and foremost, training dollars have shrunk to a truly 
unbelievable low level over the last couple of years. When 
funding is tight, training is one of the first things cut; yet, 
it critically impacts the quality of our Federal work force.
    Second, women tend to be employed at the lower ranks in the 
Federal Government at much greater numbers than men. This does 
not mean that they do not aspire to be in leadership or 
management positions. We argue that, to help women move into 
higher-level jobs, they need the training opportunities along 
the way, and therefore should be permitted to take manager and 
upper-level training along with their progression. FEW believes 
so strongly in this approach that, during our national training 
programs held over many years, any attendee, whatever their GS 
level or job description, can take any training workshop that 
they would like, including those geared toward upper management 
and leadership positions.
    Further, by attending our national training program, 
attendees are exposed to high-ranking officers, Government 
employees, in both educational and social settings.
    Mentoring: having a mentor is an extremely important aspect 
to any Federal worker's progression; however, there are no 
formal mentoring programs for women or minorities in the 
Federal Government. Women need to have leaders to whom they can 
ask questions, obtain advice about their careers, and receive 
suggestions on career moves. FEW also suggests that perhaps 
incentives should be made available to the senior managers to 
establish, endorse, and participate in this very mentoring 
program. Further, the establishment and participation in a 
mentoring program should be part of the manager or supervisor 
and the employee's performance requirements to hold those 
leaders responsible for increasing diversity.
    The OPM Federal candidate development program: as we 
remarked during our 2003 testimony before this subcommittee, 
the creation of the Federal candidate development program was 
important; however, there are many ways the program should be 
improved. Only an extremely low number of applicants are 
actually admitted into the program. For instance, my figures 
from 2004 show that there were 4,704 applicants received yet 
only about 50 candidates were accept. Considering the vast 
numbers of retirements expected in the next couple of years, 
especially from the top levels of the Government, many more 
potential candidates for SES must be trained to fill these 
slots.
    Of more critical importance is the lack of outreach to 
potential candidates. An overwhelming majority of my FEW 
members had never heard of this program, many of whom were 
already qualified and could have possibly been a candidate and 
accepted.
    The Federal women's program: it was instituted in 1967 by 
an Executive Order No. 11375, and it created Federal women's 
programs which were mandated to have in every Government entity 
to provide ongoing training, career counseling, leadership, and 
to ensure women were provided guidance for advancement. 
However, this Federal women's program became another victim of 
our vastly decreased funding.
    Again, we very much appreciate the subcommittee and 
chairman's interest, and I and the other 1.2 million Federally 
Employed Women are proud of the work we do for the Federal 
Government and to help women and minorities aspire and succeed 
in entering the SES.
    I was going to ask for more time because I have such a 
Southern accent, but looks like I went over, but anyway, thank 
you so much.
    [The prepared statement of Ms. Trent follows:]

    [GRAPHIC] [TIFF OMITTED] T1852.092
    
    [GRAPHIC] [TIFF OMITTED] T1852.093
    
    [GRAPHIC] [TIFF OMITTED] T1852.094
    
    [GRAPHIC] [TIFF OMITTED] T1852.095
    
    [GRAPHIC] [TIFF OMITTED] T1852.096
    
    [GRAPHIC] [TIFF OMITTED] T1852.097
    
    [GRAPHIC] [TIFF OMITTED] T1852.098
    
    Mr. Davis of Illinois. Thank you very much. We will 
certainly have some time in the question and answer period.
    Mr. Sandate.

                  STATEMENT OF GILBERT SANDATE

    Mr. Sandate. Good afternoon, Mr. Chairman and members of 
the subcommittee. Thank you for the opportunity to appear 
before you today.
    My name is Gilbert Sandate and I am the senior policy 
advisor to Jose Osegueda, president and CEO of the National 
Association of Hispanic Federal Executives [NAHFE]. I am also a 
past president of NAHFE.
    NAHFE is proud to represent all senior level Hispanics in 
the Federal work force and to speak on their behalf at this 
hearing today. As you may be aware, NAHFE's mission is to 
promote the development and advancement of qualified Hispanics 
to senior level policymaking positions in the Federal 
Government.
    Hispanics are the largest minority in the country, 
representing 14.5 percent of the total population and 13.6 
percent of the national civilian labor force. Yet, Hispanic 
representation in the Federal work force was but 7.5 percent as 
of June 30, 2006, leaving them the only under-represented 
minority group in the Federal work force. And according to 
recent OPM reports, Hispanics were represented in career SES 
level jobs at 2.5 percent as of June 30, 2006. In the key 
feeder occupations leading to SES positions, OPM data reported 
minimal representation for Hispanics.
    Mechanisms are needed to ensure that Hispanic candidates in 
the pipeline can move successfully into senior career level 
positions.
    Having worked my entire 34-year Federal career in the civil 
rights and human resources fields, primarily as a manager, I 
can speak with some authority about the barriers and obstacles 
that minorities, especially Hispanics, face in reaching career 
goals. I have witnessed first-hand the unfairness, the 
prejudice, and discrimination that is often present in hiring, 
promotion, and advancement decisions in the Federal workplace. 
I have worked for and with Federal managers who viewed the 
Government's diversity and equal employment opportunity 
programs as a nuisance, something to be tolerated and 
marginally complied with, but always relegated to third-tier 
priority status.
    NAHFE believes the answer to successfully diversifying the 
senior level ranks of Government is to set in place and to 
enforce meaningful systems of accountability so that managers 
and supervisors may be held accountable for effectively 
carrying out their legal mandate to implement and promote equal 
employment opportunity and diversity programs.
    The diversity practices in hiring, development, retention, 
and promotion of Hispanics in the Federal work force are not 
being enforced. As a result, we have agencies such as the 
Department of Defense, with nearly one million civilian and 
1,200 SES level employees, with a Hispanic representation in 
the SES levels of 1.5 percent. This is especially shameful when 
you consider that today over 12 percent of all casualties in 
Iraq and Afghanistan are young Hispanic soldiers. We submit to 
this subcommittee that if we are good enough to die for our 
country, we ought to be good enough to serve it as Government 
employees at all levels of the Federal work force.
    Another agency that should be a model for the Hispanic 
community is the Department of Education, yet, out of 165 SES 
positions, DOE has a total Hispanic representation of 1 
employee.
    NAHFE believes that the administration and oversight of 
Government career training and leadership development programs 
must be monitored so that barriers to fair and equal 
participation by Hispanic and other minority candidates can be 
eliminated. Too often these training and development decisions 
are made based on favoritism, prejudice, and exclusion.
    In summary, NAHFE recommends the following: Congress should 
strengthen existing diversity accountability systems by tying 
them to the appropriation and budget oversight process.
    Congress should require agencies to forcefully implement 
the accountability systems for which they are responsible.
    Congress should provide a funding source for nonprofit, 
constituency-based organizations such as NAHFE to partner with 
Federal agencies in identification and training of talented 
Hispanic candidates to prepare them for senior-level positions.
    Congress should require that all agencies initiate SES 
candidate development programs.
    And, last, this subcommittee can serve as a diversity model 
by retaining a cadre of well-qualified Hispanic career civil 
servants to work with the subcommittee staff on a 1-year 
temporary assignment on issues related to improving Hispanic 
diversity at the SES levels of the Government.
    Chairman Davis, members of the subcommittee, we thank you 
for the opportunity to share these views with you today.
    [The prepared statement of Mr. Sandate follows:]

    [GRAPHIC] [TIFF OMITTED] T1852.099
    
    [GRAPHIC] [TIFF OMITTED] T1852.100
    
    [GRAPHIC] [TIFF OMITTED] T1852.101
    
    [GRAPHIC] [TIFF OMITTED] T1852.102
    
    [GRAPHIC] [TIFF OMITTED] T1852.103
    
    [GRAPHIC] [TIFF OMITTED] T1852.104
    
    Mr. Davis of Illinois. Thank you very much. We sure 
appreciate your testimony.
    Ms. Young.

                   STATEMENT OF DARLENE YOUNG

    Ms. Young. Good afternoon, Chairman Davis, Ranking Member 
Marchant, and subcommittee members. Thank you for this 
opportunity to speak to the topic of diversity in the Senior 
Executive Service and top-level executive positions, GS-14 and 
15 of the Federal Government. In 2003, my predecessor, Gregory 
Reeves, also testified for Blacks in Government.
    Last year Blacks in Government celebrated 30 years of being 
an advocacy and training organization on behalf of African 
Americans employed by Federal, State, and municipal 
governments. Our goals and objectives are to promote 
professionalism among blacks in government, eliminate practices 
of racism and discrimination, maintain a mechanism for the 
gathering and dissemination of pertinent information, and to 
develop and promote programs which will enhance ethnic pride.
    Increasing the percentage of African Americans in the 
highest level positions is and has always been one of our most 
difficult and significant challenges. We have yet to overcome.
    The number of African Americans in almost every Senior 
Executive Service position and job category lags significantly 
when you compare to whites. Today, African Americans comprise 
roughly 6.6 percent of SES positions, while the whites is 
approximately 90 percent.
    The low rate of SES appointments for African Americans is 
unacceptable, regardless of whether it is measured against the 
overall distribution of 20 percent of African Americans in the 
Federal work force or against 11 percent employed in the civil 
labor force.
    Today I will highlight four systematic personnel process 
that we believe adversely impact the recruitment of African 
Americans for SES positions. The four are: the expansion of the 
applicant pool; training and development programs; modification 
of selection process; and making top managers accountable for 
the results.
    Expansion of the applicant pool: increasing the internal 
recruitment, involving advocacy groups in the external 
recruitment. Some of those examples would be such as giving 
that information of all those SES positions to Blacks in 
Government at our training conference. At our training 
conference we have over 5,000 applicants that are at our 
conference, and at that time we have agencies who have booths, 
so if that information is available those applicants who are 
qualified could then apply for those positions in the SES.
    Institute SES training and development programs: what 
Blacks in Government has done to help with that process is we 
have partnered with the U.S. Graduate School. We have developed 
our own leadership program that will enhance our members to be 
able to qualify for the SES level.
    Modification of selection process: decentralize selection 
process, eliminate OPM's ratification, and involve SES 
minorities in the selection process.
    Top management involvement: ensure that top level is aware 
of the SES diversity goals and problems. Include diversity 
progress in the standards and the evaluations.
    I could go on and on about how you can increase the level 
of SESers among African Americans and minorities, but at this 
point I will stop.
    I want to thank this subcommittee for allowing me this 
opportunity to speak on behalf of Blacks in Government. I will 
look forward to entertaining any questions that you may have.
    [The prepared statement of Ms. Young follows:]

    [GRAPHIC] [TIFF OMITTED] T1852.105
    
    [GRAPHIC] [TIFF OMITTED] T1852.106
    
    [GRAPHIC] [TIFF OMITTED] T1852.107
    
    Mr. Davis of Illinois. Thank you very much, Ms. Young.
    We will go to Mr. Bransford.

                 STATEMENT OF WILLIAM BRANSFORD

    Mr. Bransford. Thank you, Mr. Chairman Davis.
    The Senior Executive Association appreciates the 
opportunity to testify about the important topic of the lack of 
diversity in the senior ranks of Government. I am Bill 
Bransford, general counsel of SEA.
    We applaud your oversight of diversity in the career SES 
and other senior positions in Government. SEA also seeks to 
work toward an SES that represents fully the diversity of 
America. Not only is it the right thing to do, but achieving 
diversity will pay dividends by producing a Government lead by 
executives that reflect America.
    The 2003 Government Accountability Office report on this 
subject showed that women and minorities were significantly 
under-represented based upon their overall presence in the 
Federal work force. The upcoming retirement tsunami presents an 
excellent opportunity to get it right with respect to diversity 
in the SES. OPM projects that 90 percent of the current SES 
will retire over the next 10 years, with the largest number 
retiring in 2009. This is a chance to change the culture of the 
Federal workplace to one that promotes diversity.
    SEA sees four areas where the Government could dramatically 
improve diversity. First, develop clear data and make it 
accessible. Second, build pipelines for career development to 
assure that minorities and women will be promoted to the Senior 
Executive Service. Third, respect the merit system. Finally, 
and perhaps most important, adopt a culture of leadership that 
emphasizes being inclusive of all employees.
    In most agencies data on diversity remains in the realm of 
the agency EEO office. Promoting diversity needs to be a team 
effort, with the entire organization knowing where it stands, 
where it wants to go, and how it plans to get there.
    If agencies looked at data in the context of other issues 
in the organization, such as dead-end jobs and EEO complaints, 
it can be even more valuable in identifying and solving 
problems. Agencies should work with associated interest groups 
such as the ones on this panel to recognize where their 
diversity problems lie.
    Once issues are identified through good data and 
collaboration, agencies can better tailor their hiring, 
training, and promotion to support diversity.
    Diverse, qualified, quality candidates must be placed in 
the pipeline leading to senior executive positions. While good 
data helps us understand how to accomplish this, leadership is 
what will make it happen.
    Promoting a diverse leadership is more easily said than 
done. As it stands now, promoting diversity in the Federal 
workplace is not rewarded. Quite conversely, many senior 
personnel are confounded by the EEO system and work to avoid 
complaints, not to promote diversity. An atmosphere of 
``gotcha'' seems to pervade some Federal workplaces and causes 
many managers to believe that higher-level management will not 
support them on the issue of diversity.
    The basic notion of the best candidate should be promoted 
has not changed, nor should it change as we seek a more 
diversity work force. Developing a qualified and diverse work 
force does not violate the merit system. Agencies need to 
encourage managers who promote diversity as an agency-wide, 
inclusive culture.
    Our final and most important point is about leadership for 
diversity. Gathering data, creating talent pipelines, 
dispelling myths, and training leaders are all steps on a 
longer journey. In an ideal workplace, holding diversity as a 
value must be acknowledged, promoted, and rewarded. The best 
way to move beyond the status quo is to encourage agency heads 
and individuals in leadership to actually champion diversity 
rather than simply pay lip service to it. Managers at all 
levels must act and speak diversity every day. If higher-level 
political appointees do it, lower-level career managers will 
know that promoting diversity in a fair and inclusive workplace 
will be rewarded and it can become a model for senior 
Government leadership that reflects the America of today and 
into the future.
    This must be a genuine effort that continuously identifies 
problems, eliminates barriers, and communicates the values of 
diversity through our Government. With perseverance and 
commitment, we believe a diverse civil service from top to 
bottom can be achieved. There was a time when the Federal 
workplace was less diverse than it is now. It is time for the 
top echelons of the Federal work force to catch up.
    Thank you again for the opportunity to testify before this 
subcommittee. SEA looks forward to working with you and with 
agencies on this important issue.
    Thank you.
    [The prepared statement of Mr. Bransford follows:]

    [GRAPHIC] [TIFF OMITTED] T1852.108
    
    [GRAPHIC] [TIFF OMITTED] T1852.109
    
    [GRAPHIC] [TIFF OMITTED] T1852.110
    
    [GRAPHIC] [TIFF OMITTED] T1852.111
    
    Mr. Davis of Illinois. Well, thank you all very much. You 
know, as I listened to the testimony and as we got closer and 
closer to the end of the hearing, I was reminded, I guess, of 
this notion that sometimes we save the best for last. I mean, 
in terms of the goals and objectives that we have set for this 
subcommittee--and I am pretty up front in terms of who I am and 
what I believe and what I do--the testimony that you have 
provided I think gives a kind of blueprint in a way for some 
directions that we could take. I really do appreciate it.
    One of the things that I have said relative to my own being 
is that when I leave this subcommittee and if I leave its 
chairmanship I certainly don't intend that the numbers reflect 
the same, and I don't intend that the problems when delineated 
will be the same with no concrete direction for how we change 
them.
    I will ask, and perhaps each one of you can respond. Where 
do you suggest that we start? Mr. Brown? I mean, we have 
delineated some barriers, we have laid out some situations, and 
if we begin to change them what is a good place to start?
    Mr. Brown. Thank you, Mr. Chairman. I think the first place 
I would start would be with the existing cadre of personnel you 
have now and work force. In other words, there is a system in 
place now. I would tweak that system. And I think I would do 
more than tweak it; I would really give it a shot in the arm. 
That was the basis for our testimony of holding the selecting 
officials accountable.
    You know, our membership tells us about individuals having 
sole authority to promote people. You know, we have to get 
serious about the business of requiring that this is a 
committee selection, there is minority representation on that 
committee, and the agency head is going to review those 
recommendations in light of the strategic vision that you have 
put forth in terms of diversity in the workplace. So I would 
start with giving a shot in the arm to the existing process by 
holding them accountable.
    On the other hand, I would send another message by setting 
up a reward system, a diversity award. For those of you that 
understand and comply with the vision set forth by this 
committee, there is a reward at the end. Now, we can talk about 
reward being a better America and the talent and so forth, but 
I am talking about right away your agency, we are going to show 
you and hold you up as a model. That is where I would start, 
Mr. Chairman.
    Mr. Davis of Illinois. Anyone else, would you respond?
    Mr. Sandate. Yes, Mr. Chairman. To us it is very clear that 
what needs to be done in order to improve the system of 
advancing minorities to the senior levels is that somebody 
needs to hold Government agencies accountable for doing what 
they are supposed to be doing.
    There are tools that are out there now. For example, the 
Uniform Guidelines on Employee Selection Procedures, EEOC has 
the responsibility to enforce and monitor those. That is not 
happening. The implementation of Executive Order 13171, 
Hispanic Employment in the Federal Government, OPM has the 
responsibility to monitor and enforce agencies' effective 
implementation of that. It is not happening. The Federal Equal 
Opportunity Recruitment Program, or FEORP, again, OPM has that 
responsibility, not happening. And so forth. The tools are 
there.
    The strategic management of human capital, which is a 
responsibility that OMB and OPM has to ensure that the 
diversity component is being implemented effectively, not 
happening. Everybody is getting a green pass, a rubber stamp on 
their diversity efforts under strategic management of human 
capital. No one seems to be holding Federal agencies 
accountable for carrying out their mission effectively in this 
area.
    Ms. Trent. Chairman Davis, I would offer that we need to 
hold close and dear to us that we need to prepare these 
candidates in order to move up. The preparation is paramount.
    Whatever happened to the upper mobility programs, the job 
sharing programs in order to help people get into the career 
fields that would aspire them to have a high motivation or to 
aspire them to go on in the Federal Government? I personally 
was picked up on an upper mobility program. That is how I went 
from a job to a career in the Federal Government. Those upper 
mobility programs don't exist. There are very, very few. Women 
and minorities would jump on the chance to have an upper 
mobility or a job sharing program. Those things used to be 
very, very sought after.
    We have to prepare these people, and by all means we have 
to help these people become educated. Most of my FEW members 
that answered my questions when I was preparing on this, most 
of them didn't really even understand the SES and how to aspire 
and get there. We have to have mentoring programs that help get 
the word out, train these people in order so they can be a 
candidate, and then they can be a candidate and go through the 
proper selection panel process that these gentleman have just 
discussed.
    Mr. Davis of Illinois. Thank you.
    Ms. Young. Chairman Davis, Blacks in Government spent many 
years of bringing SES to our training conference over years. We 
have many African Americans that are sitting, waiting to be 
placed in SES positions. They don't fit the criteria for the 
jobs that are available.
    I would say that you would need to start with the SESers 
that are out there. There is a pool of us out there that should 
be placed in some of these jobs that are vacant, but if you are 
not from--an example would be I have a young man that is from 
HUD who is an SESer, but there is no SES position at HUD that 
he can fill, so there are applicants that are out there that 
are ready, but these agency's SESers are not being selected.
    Mr. Bransford. Mr. Chairman, I think one of the first 
things that can be done is to improve the data. When you look 
at the data now, you look at OPM's FedScope, first of all, it 
takes a lot of effort to figure out what it is trying to tell 
you, and then it doesn't tell you enough. For example, in 
talking to some of the Asian Pacific American groups, they tell 
me that their members tend to get dead-ended into technical 
jobs and they can't get into management positions, but they 
really don't have the data to show this because the data is not 
being developed at that level of detail.
    So I think if we look at the data, develop a level of 
detail with the idea of trying to discover the barriers, not 
only develop the data but then have a program to do something 
with it, something about it, I think then we can figure out 
just why this has become such a big problem.
    Mr. Davis of Illinois. Well, you know, I could go on and on 
with this and could sit and listen to you for the next several 
hours, but I won't put you through that punishment, but I will 
say that the insight that you have provided for the committee, 
that we will certainly take that information. I mean, we will 
take your information, your experiences, your feelings, and 
really sift through it and try and come up with something that 
becomes doable.
    I am sitting here saying to myself, why do you always take 
these real tough things to do? I mean, systems that are 
ingrained, that people do everything within their power to 
protect, feelings and prejudices and discriminations and all of 
those things that are as old as time. Here I am talking about 
we are going to take this subcommittee and attempt to seriously 
do something with it. Well, we are going to do that, and I 
thank you for the inspiration and motivation and for your 
participation which has helped push that forward.
    Again, I thank all of those who have remained to hear the 
end of the session. We will just determine that this hearing is 
adjourned.
    Thank you.
    [Whereupon, at 4:58 p.m. the subcommittee was adjourned.]
    [The prepared statement of Hon. Elijah E. Cummings and 
additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T1852.112

[GRAPHIC] [TIFF OMITTED] T1852.113

[GRAPHIC] [TIFF OMITTED] T1852.114

[GRAPHIC] [TIFF OMITTED] T1852.115

[GRAPHIC] [TIFF OMITTED] T1852.116

[GRAPHIC] [TIFF OMITTED] T1852.117

[GRAPHIC] [TIFF OMITTED] T1852.118

[GRAPHIC] [TIFF OMITTED] T1852.119

[GRAPHIC] [TIFF OMITTED] T1852.120

[GRAPHIC] [TIFF OMITTED] T1852.121

[GRAPHIC] [TIFF OMITTED] T1852.122

[GRAPHIC] [TIFF OMITTED] T1852.123

[GRAPHIC] [TIFF OMITTED] T1852.124

[GRAPHIC] [TIFF OMITTED] T1852.125

[GRAPHIC] [TIFF OMITTED] T1852.126

[GRAPHIC] [TIFF OMITTED] T1852.127

[GRAPHIC] [TIFF OMITTED] T1852.128

                                 <all>

</pre></body></html>
